wr

C@OCKLE

Le ga | Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-487

KEVIN W. CULP, MARLOW DAVIS, FREDDIE REED-
DAVIS, DOUGLAS W. ZYLSTRA, JOHN S. KOLLER,
STEVE STEVENSON, PAUL HESLIN, MARLIN
MANGELS, JEANELLE WESTROM, SECOND
AMENDMENT FOUNDATION, INC., ILLINOIS CARRY
AND ILLINOIS STATE RIFLE ASSOCIATION,
Petitioners,

v.

KWAME RAOUL, in his Official Capacity as Attorney
General of the State of Illinois, BRENDAN F. KELLY,
in his Official Capacity as Acting Director of the Illinois
State Police, and JESSICA TRAME, as Bureau Chief of
the Illinois State Police Firearms Services Bureau,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 2297 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska ‘ LY Qndow ,
My Commission Expires Nov 24, 2020 fi

Notary Public Affiant

 

39387
